<html>
<title> - NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2008 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED TENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



                         [H.A.S.C. No. 110-47]

                                HEARING

                                   ON
 
                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2008

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                     READINESS SUBCOMMITTEE HEARING

                                   ON

     BUDGET REQUEST ON READINESS OF THE ARMY AND AIR NATIONAL GUARD

                               __________

                              HEARING HELD

                             MARCH 27, 2007

                                     
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                     U.S. GOVERNMENT PRINTING OFFICE

37-888                     WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001











                         READINESS SUBCOMMITTEE

                   SOLOMON P. ORTIZ, Texas, Chairman
GENE TAYLOR, Mississippi             JO ANN DAVIS, Virginia
SILVESTRE REYES, Texas               WALTER B. JONES, North Carolina
LORETTA SANCHEZ, California          J. RANDY FORBES, Virginia
ROBERT A. BRADY, Pennsylvania        MIKE ROGERS, Alabama
JIM MARSHALL, Georgia                JOHN M. McHUGH, New York
MADELEINE Z. BORDALLO, Guam          HOWARD P. ``BUCK'' McKEON, 
MARK UDALL, Colorado                     California
DAN BOREN, Oklahoma                  ROBIN HAYES, North Carolina
NANCY BOYDA, Kansas                  FRANK A. LoBIONDO, New Jersey
CAROL SHEA-PORTER, New Hampshire     TOM COLE, Oklahoma
JOE COURTNEY, Connecticut            ROB BISHOP, Utah
DAVID LOEBSACK, Iowa                 CANDICE S. MILLER, Michigan
GABRIELLE GIFFORDS, Arizona          TRENT FRANKS, Arizona
KATHY CASTOR, Florida                CATHY McMORRIS RODGERS, Washington
                Paul Arcangeli,Professional Staff Member
                Lynn Williams, Professional Staff Member
                   Christine Roushdy, Staff Assistant














                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Tuesday, March 27, 2007, Fiscal Year 2008 National Defense 
  Authorization Act--Budget Request on Readiness of the Army and 
  Air National Guard.............................................     1

Appendix:

Tuesday, March 27, 2007..........................................    27
                              ----------                              

                        TUESDAY, MARCH 27, 2007
FISCAL YEAR 2008 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST ON 
              READINESS OF THE ARMY AND AIR NATIONAL GUARD
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Jones, Hon. Walter B., a Representative from North Carolina, 
  Readiness Subcommittee.........................................     2
Ortiz, Hon. Solomon P., a Representative from Texas, Chairman, 
  Readiness Subcommittee.........................................     1

                               WITNESSES

Blum, Lt. Gen. H. Steven, Chief, National Guard Bureau, U.S. Army     3
McKinley, Lt. Gen. Craig R., Director, Air National Gaurd, U.S. 
  Air Force......................................................     8
Vaughn, Lt. Gen. Clyde A., Director, Army National Guard, U.S. 
  Army...........................................................     8

                                APPENDIX

Prepared Statements:

    Blum, Lt. Gen. H. Steven.....................................    31

Documents Submitted for the Record:

    Army National Guard, Total Strength--FY04 to Present.........    46
    ARNG Equipped Requirements and Funding Over Time.............    47
    Charts (10) submitted by Lt. Gen. H. Steven Blum.............    41
    Equipment in States Possession...............................    48

Questions and Answers Submitted for the Record:

    Mr. Ortiz....................................................    51















FISCAL YEAR 2008 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST ON 
              READINESS OF THE ARMY AND AIR NATIONAL GUARD


                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                    Readiness Subcommittee,
                           Washington, DC, Tuesday, March 27, 2007.
    The subcommittee met, pursuant to call, at 3:50 p.m. in 
room 2118, Rayburn House Office Building, Hon. Solomon P. Ortiz 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. SOLOMON P. ORTIZ, A REPRESENTATIVE 
          FROM TEXAS, CHAIRMAN, READINESS SUBCOMMITTEE

    Mr. Ortiz. Today the Readiness Subcommittee will receive 
testimony on the readiness posture of our Army and Air National 
Guard.
    National Guard readiness is an issue that I have followed 
closely, and it is of great concern to me. Not just because my 
district is in a hurricane prone area, but also because I 
understand how important the guard is in providing for our 
national defense. Our concerns for the guard have grown over 
the past several years as I have watched the guard change from 
a force supporting the strategic base to one that is 
operational in nature with less focus on strategic missions. 
This is an enormous shift in how the guard is used, and while 
this change is not the focus of the hearing today, it does 
directly influence guard readiness.
    It is no secret that all of the services are having 
readiness shortfalls. Recent testimony before the subcommittee 
by the services cast also great concern about the 
sustainability of the ongoing as well as potential future 
missions. Just yesterday we learned that as many as 1,200 
Marine reservists are being involuntarily called up for duty in 
Iraq. The service has been unable to find enough volunteers to 
fill. While this hearing is focused on the guard and not the 
reserve, this call-up illustrates the increasing manpower 
shortages the services are facing as the war in Iraq continues.
    The guard's readiness posture is even more troubling than 
the active component. The shortfalls in equipment and training, 
the guard will have a direct effect on how they will respond to 
emergencies at home or abroad.
    During General Blum's testimony before the Commission on 
the National Guard and Reserves, you said that it will take $40 
billion to bring the Army and Air National Guard up to 80 
percent of their equipment requirements. And I have seen in 
your statement today that the guard is only at 40 percent of 
its required equipment.
    This is an enormous shortfall, and it is evident, when I go 
out to see national guard units in my own district, because I 
visit both my reserve and national guard, and I find the 
shortage of equipment, every unit I visit has shortages of 
equipment, and I know if Members were to travel and go to their 
own national guard units and the reserve units, they will find 
the same things I did. And this is totally unacceptable.
    Hurricane Katrina and the Iraq war has shown us that we 
need a national guard that is manned, equipped and ready. Today 
I hope you gentlemen will help us better understand the 
readiness problems that the Army and the Air Force Guard face 
today.
    The country wants to help, and we need to fully understand 
that the guard needs to be ready for missions at home and 
abroad.
    Gentlemen, I look forward to hearing your testimony, and 
the chair recognizes my good friend from Virginia--he is 
Virginian and North Carolinian, so he is both.
    Mr. Jones. We really are good friends, by the way.
    Mr. Ortiz. The ranking member, Ms. Davis, has been ill for 
a little while, and we pray to God that she can come back and 
join us.
    And now I turn to my good friend, Mr. Jones, for any 
statement that he would like to make.

STATEMENT OF HON. WALTER B. JONES, A REPRESENTATIVE FROM NORTH 
                CAROLINA, READINESS SUBCOMMITTEE

    Mr. Jones. Thank you, Chairman Ortiz, for holding this 
timely and very important hearing on the readiness of our 
national guard. I strongly believe the issues we are discussing 
here today are absolutely critical to the Nation's ability to 
meet the National Security Strategy, and I thank you for 
holding this hearing.
    I would also like to thank our witnesses, General Blum, 
General Vaughn, and General McKinley, for taking the time to 
talk to us today about the needs of the national guard.
    Gentlemen, thank you for your testimony, and thank you for 
all you do for our Nation.
    Whether we like it or not, the world is changing around us. 
Gone are the days when we could assume that the guard and 
reserve were a lower funding priority than the active 
component. The global events of the last four years, to include 
Hurricanes Rita and Katrina, have shown us the flaws in our 
thinking. Decades have reduced procurement and underfunding 
training, maintenance and military construction accounts have 
placed our national guard in jeopardy.
    The increased operation tempo driven by continued combat 
deployments, counterterrorism activities, Homeland Security 
requirements, border protection and domestic disaster relief 
brings the true state of our national guard to the forefront of 
our discussion as we craft the fiscal year 2008 requests.
    This committee received testimony last week on the findings 
and recommendation of the Commission on the National Guard and 
Reserves. In their written report, the Commission stated, and I 
quote, Like all participants in the federal budget process, the 
reserve components must compete for scarce resources. Reserve 
funding requirements are planned, programmed, and budgeted for 
each service budget process and are considered as part of total 
force requirements.
    Finding sufficient funding for these requirements will 
remain an ongoing challenge given the tight fiscal environment, 
competing budget priorities, and the demands on Department of 
Defense (DOD) in alloting its resources. We realize that 
policy-making is often driven by resource constraints, and that 
trade-offs are necessary.
    With that, Mr. Chairman, thank you again very much for this 
hearing, and we do appreciate it.
    Mr. Ortiz. Thank you so much.
    Today we have a panel of distinguished witnesses 
representing the National Guard Bureau and the Army and Air 
National Guard who will address the guard's readiness posture. 
Let me say that we thank you so much for the outstanding work 
that you do.
    Even though we have a lot of problems, you still excel and 
do a great job.
    Our witnesses are Lieutenant General H. Steven Blum, the 
Chief of the National Guard Bureau; Lieutenant General Clyde A. 
Vaughn, the Director of the Army National Guard; and Lieutenant 
General Craig R. McKinley, the Director of the Air National 
Guard.
    Now, without objection, all of the testimony, the written 
testimony that I have, or any other written material that I 
have will be included for the record.
    General Blum, if you are ready, you can begin with your 
testimony, sir.

  STATEMENT OF LT. GEN. H. STEVEN BLUM, CHIEF, NATIONAL GUARD 
                       BUREAU, U.S. ARMY

    General Blum. Thank you, Chairman Ortiz and members of the 
committee. Thanks for the opportunity to come here and talk to 
you today about the readiness posture of the Army and Air 
National Guard--actually, your Army and Air National Guard that 
protects your families and your loved ones back at home and 
also helps our Armed--our active duty Armed Forces do their job 
overseas in the war on terrorism.
    I will try to be brief and to the point.
    In the past, the practice of underresourcing the national 
guard in assuming risk was a very conscious decision this 
Nation took with regard to its Army National Guard force 
structure. It didn't fully man it. It didn't fully equip it. It 
didn't fully train it, and it didn't fully resource the Army 
National Guard because it never was expected to be an 
operational force.
    Thirty-four years ago we stopped what we called the draft, 
and we went to an all-volunteer force. The national guard has 
been an all-volunteer force since its inception in 1636, so 
this was nothing new for us, but it was for the Department of 
Defense. And what we are finding is that this old strategy of 
resourcing or underresourcing the national guard and assuming 
risk, because you have months and years to build up the force 
and equip the force and fill up the force and then train it and 
employ it, is really not a model that fits today.
    Today you must--it is come-as-you-are and it is come-on-no-
notice. And when it comes to the national guard, we have two 
masters, Mr. Chairman, as you have adequately pointed out. One 
of our masters are the Governors of the 50 States and 2 
territories, the Commonwealth of Puerto Rico, and they have the 
national guard that they can call out at any time to deal with 
the hazards of mother nature, floods, hurricanes, tsunamis, 
earthquakes and on and on, winter storms, as you have seen. On 
any given day, at least 17 Governors call on our national guard 
each and every day since I have been in the job in the last 4 
years. So it is not uncommon to have as many as 17,000 Army and 
Air National Guardsmen deployed right in our own homeland 
saving lives and reducing suffering and trying to bring normal 
conditions back to your communities as we have seen all too 
well in Hurricane Katrina, Rita, Wilma and on and on.
    So today we find ourselves with a strategy that doesn't fit 
the operational use. The national guard is an operational force 
overseas. We provide significant combat power, combat service 
support and combat support to the United States Army. We are 
essential to the war in Iraq. We are essential to the effort in 
Afghanistan. We are essential in the Horn of Africa. We are 
essential--we are the forces on the ground in the Balkans. We 
are guaranteeing the treaty in the Sinai, and frankly, we are 
deployed in about 40 nations around the world supporting the 
war on terror.
    At the same time, as you are well aware, we have 6,000-plus 
national guardsmen along our southwest border in California, 
Arizona, New Mexico and Texas that are providing military 
support to civil law enforcement agencies and the Border Patrol 
to make our borders safer and more secure, and to deal with 
what is becoming an increasingly focused threat on our 
southwest border to a safe and secure environment for those 
four border States.
    Now, to do this kind of response, we need to be adequately 
resourced. We have to be fully manned, fully trained and fully 
equipped and fully resourced. I am proud to tell you that, for 
the national guard forces, both Army and Air, that are deployed 
overseas, this is the case. They are the best equipped, best 
trained, best led, best quality force that this Nation has ever 
put into harm's way, and that, I think, is something that the 
Congress can applaud and be proud of.
    What I am not so proud of and I do not want to applaud, but 
I do want to highlight to this Committee, is that we are now in 
a degraded state back here at home. And the ability for the 
national guard to respond to natural disasters and to perhaps 
terrorists or Weapons of Mass Destruction (WMD) events that may 
come to our homeland is at risk because we are significantly 
underequipped.
    The average Army National Guard unit in the States, without 
going into classification categories, is--rough order of 
magnitude has about 40 percent of the equipment it is supposed 
to have to do its mission as an organization. So if it is an 
engineer unit, it may only have 40 percent of its equipment. If 
it is a medical unit, it may only have 40 percent of its 
equipment. If it is an aviation unit, it may have only 40 
percent of its helicopters. Now 40 percent is an average. So 
there will be States and members here today that have less than 
that. And there will be some, a few in this room, that will 
have slightly more than that. But nobody has more than 65 
percent of the equipment they need back here at home. And I 
think that that condition is unacceptable, and it should be 
brought to the attention of the Congress because I think the 
Congress is the proper place to appropriate and authorize the 
cure to that.
    If we were to get all of the moneys that the Department of 
Defense has offered and briefed this committee and to us, we 
would have more money than we have ever had historically before 
in equipping the guard. But all of that money, if all of it 
came to us over the complete Program Objective Memorandum (POM) 
or over the complete fiscal year defense plan (FYDP) over the 
five-year distribution of those funds, which is not a given, 
okay; but if that were to occur, we would still find ourselves 
with what I described to you as a $40 billion dollar deficit to 
equip the national guard, both Army and Air, at the level that 
I feel is an acceptable level of operational readiness and 
would buy down the operational risk that exists here in our 
homeland.
    Today, only 12 percent of the Army Guard units that are in 
the United States, not forward deployed overseas, are equipped 
at a level that I am describing. That means almost 9 out of 10 
are not. And in the Air National Guard, about 6 out of 10 are 
fully equipped, and about 4 out of 10 are not.
    So I am trying to give you the magnitude of the problem and 
what it would cost, frankly, for this Nation to purchase the 
equipment that I am talking about.
    We have the best led, best trained, best quality force, but 
to have a capability, you have to have three things: You have 
to have people; they have to have training; and those trained 
people have to have equipment. Those three things deliver the 
capability that I think this Nation expects out of its national 
guard.
    Today we have two of the three. And we have about half of 
the--a little less than half of the third. And that is what I 
want to bring to the attention of this committee today.
    I talked about the fact that we are a dual mission force. 
We respond to the Governors on no notice. No notice means a 911 
kind of response. Governors measure the response of their 
national guard to events that happen in their states and in 
those zip codes that they govern in terms of minutes and hours. 
The Department of Defense, a rapid reaction would be 96 hours, 
72 hours. Ladies and gentlemen, that is three or four days. 
That is an unacceptable measurement of response time for the 
national guard to respond here at home. To respond here at 
home, you have to have your people fully manned, fully trained 
and fully equipped and operationally ready on a moment's 
notice.
    If we don't have the equipment we need, the reaction time 
is slower, and time equals lives lost, and those lives 
unfortunately are American lives in your home districts.
    So this is a very, very important subject, I think, for 
this committee to consider and for us to discuss in detail here 
today.
    The part of the national guard that acts as a federal 
reserve as the Army and Air Force is receiving unprecedented 
commitment of resources and attention by the Department of the 
Army, the Air Force and the Department of Defense. I applaud 
that. I celebrate that. It is the first time in the history of 
this Nation that that has ever occurred. We now need to make 
sure that that same level of attention is directed to the 
national guard that is in the employment of the Governors of 
this great Nation.
    The Army and Air National Guard need equipment, but they 
also need other things. They need a full-time manning that is 
realistic and necessary to provide an instantaneous 21st 
Century minuteman and woman response when the Governors need 
their national guard. The level of full-time manning in the Air 
National Guard is a model that we should emulate and try to 
achieve and duplicate in the Army National Guard. We are not 
there. We, today, finally have the Army recognizing the 
requirements for the full-time manning of the Army National 
Guard, but, unfortunately, the resources have not been applied 
or allocated to make those requirements a reality. So we will 
not achieve that reality unless some adjustments are made 
there.
    It is unreasonable to expect to be able to generate a 150-
man medical unit or communications unit or engineering unit and 
have only one or two full-time people in that armory 
responsible for the Administration, the logistics, the training 
and the readiness of that force. We need to get to a much more 
realistic model, and we need to help the Congress to do that.
    While we face challenges, there are many positive 
developments as well, and I would be remiss if I didn't bring 
that to the attention of the committee.
    First, our new Secretary of Defense, Robert Gates. 
Secretary Gates on the 11th of January made a very significant 
decision to limit the mobilization time for the guard and 
reserves to one year, start to finish. This will guarantee, in 
my judgment, a sustainable, all-volunteer force for the 
foreseeable future that could generate perhaps 60,000 to 65,000 
Army and Air National Guardsmen for an indefinite period of 
time without straining the relations that the soldier must 
maintain with their families and their employers. The national 
guard is an older, more mature force than the active duty 
force. And 70 percent of our force is married. So the family is 
an absolute majority stockholder in what goes on and whether 
that service member is going to maintain their membership in 
the national guard and be available on call.
    We simply must address the predictability for the families 
and the civilian employers so they can deal with the time and 
interruptions of service when the civilian employer has to let 
their employee go to do national guard service. I think this 
one year will fulfill the bill. It gives the predictability and 
certainty the families and employers have asked for, and 
Secretary Gates's policy demonstrates his willingness to listen 
and to consider and be sensitive to the citizen soldier and 
their needs. And it also, I think, shows his courage and 
decisiveness to make hard calls that many in the Pentagon were 
unwilling to make prior to his tenure.
    Another great part of his policy is that we will call the 
national guard units up as units and we will not force the 
service members to have to volunteer. That is an unfair burden 
for them to bear with their families and with their civilian 
employers. If they are a member of the unit, they know when the 
unit will be called. It will be on the cycle of service. They 
know exactly when their unit is scheduled to be called or 
available to be called, and if they are in that unit, they will 
go with their unit. And they can make their choices whether to 
remain with the unit before the unit is called.
    So I don't think we will have to have many of the adverse 
effects of stop-loss as we have seen in the past. His new 
mobilization policy will have a significant positive long-term 
effect, in my judgment.
    Additionally, Secretary Gates has made a firm commitment 
and has stated that he is personally committed to resourcing 
the national guard to a reasonable level that it has not been 
resourced in the past.
    Second, recruiting in the Army National Guard and the Air 
National Guard is at an all time high. We have the best quality 
force, and we are generating higher enlistment numbers than we 
ever had in the history of the Army and Air National Guard. Our 
retention rate or the propensity of our citizen soldiers to 
stay with us and reenlist is at an all time high. It averages 
at about 115 percent of our retention goals.
    General Vaughn is most proud, as all of us are, as this 
time last year we were getting wire-brushed pretty good by the 
services and the Congress on what the strength looked like in 
the national guard. I am happy to tell you that we will achieve 
our end strength in probably the next 30 days which will take 
us to the 350,000 mark. You will find that the national guard 
has recruited higher numbers in 2006 and higher quality than it 
ever has in the history of recorded--keeping records of the 
all-volunteer force. So it is a good news story, and frankly, 
we could not have done this and accomplished this without the 
authorizations and the appropriations, that this Congress has 
provided the resources to the guard to make us successful.
    If the guard is adequately resourced and the guard has the 
proper authorities, we will not fail the Nation.
    In closing, I would simply remind this committee that, in 
the 21st Century, with threats both overseas and here at home, 
a strong national guard must have the response not only to 
respond here at home but it has to be equipped and trained so 
that our adversaries overseas see us as a credible deterrent 
force, a force that will complicate their thought process and 
make them consider very long and hard before they make a short-
range miscalculation.
    What it would cost to send our forces overseas, if they do 
miscalculate, would be several times the magnitude of what it 
would cost to appropriate and authorize what it would take to 
make our force a credible deterrent for overseas adversaries 
and still a magnificent operational-ready force both abroad and 
here at home.
    I would ask now the director of Army National Guard if he 
would like to make some remarks in specifics to the Army Guard, 
and he will be followed by General McKinley of the Air Guard.
    [The prepared statement of General Blum can be found in the 
Appendix on page 31.]
    Mr. Ortiz. Thank you so much.
    General Vaughn.

STATEMENT OF LT. GEN. CLYDE A. VAUGHN, DIRECTOR, ARMY NATIONAL 
                        GUARD, U.S. ARMY

    General Vaughn. Thank you, Mr. Chairman, and distinguished 
members. It is indeed a privilege to be here to testify today.
    I want to just quickly amplify and go through some of the 
points that General Blum made, and then we will go quickly to 
my significant other down there on the other end.
    Authorized end strength. General Blum talked to you about 
that a second ago. The States have done a magnificent job in 
filling the roles, and we have the youngest force that we have 
ever had.
    When you look at the number of soldiers that we have less-
than-10-years now, we have more soldiers in the less-than-10-
years ranks than we have over-10-years. The Army National Guard 
is changing and changing very quickly. A lot of enthusiasm out 
there, but it will be tempered down quickly if we don't get it 
equipped.
    The Army has stepped up to this. As you know, there is $36 
billion worth of equipping between the 2005 and 2008 through 
2013 POM that they pledged to and testified to over here 
several times.
    They are working hard to hold that. We need to insist upon 
transparency. Even that, some of our concerns from our 
adjutants general in the field is, there is no transparency 
between the checkbook, between the appropriations and them 
being able to see that the equipment arrives in the States. And 
so we need to work very hard on that particular piece.
    Equipping is only one piece of the readiness puzzle, and 
the other being training. And as we talked about a second ago, 
we have recruited a lot of soldiers. We have also gone through 
nodularities, as you know, that caused a lot of our soldiers to 
change their Military Occupational Specialty (MOS) on the run. 
So we have a significant delta that has to be dealt with.
    Full-time support: As General Blum talked about, a lot of 
people equate readiness directly with full-time support. And 
where was that ramp before? It was based upon a strategic 
force. It is actually an operational force now. No doubt about 
it. We need to accelerate that ramp so we get the ramp brought 
out in fiscal year 2010 rather than following all the way 
through to fiscal year 2013.
    And the last thing I would say is we are told many times 
not to confuse enthusiasm with capability, and what I will tell 
you is we have great enthusiasm in our soldiers to serve. Our 
states are measuring up, and the capability piece of this is 
not exactly just the men at this table. The capability that is 
brought about by the dollars and resources for training and for 
equipping the force, which are the big two, lays in some other 
different directions other than us three.
    And so we need that capability to have--we need to have the 
resourcing to make this a tremendously capable force. Because 
it certainly is a strong one, and it has the support of the 
people.
    Thank you.

STATEMENT OF LT. GEN. CRAIG R. MCKINLEY, DIRECTOR, AIR NATIONAL 
                     GUARD, U.S. AIR FORCE

    General McKinley. Mr. Chairman, distinguished members of 
this committee, it is a pleasure to be the junior member of the 
National Guard Bureau team to come talk to you today about the 
state of readiness of the Air National Guard.
    I am proud to be a member of the national guard. I have 
been in the national guard since 1980. I also served on active 
duty prior to that. I am also very proud to be a member of the 
United States Air Force.
    The United States Air Force is going through some very 
challenging times, but it has always prided itself on its 
integration of its Air National Guard and its Air Force 
Reserve.
    As the Air Force faces these challenges of 
recapitalization, re-equipping its force, those same challenges 
trickle down to us, and as General Blum's vice chief for Air, I 
represent him with the Secretary of the Air Force and the Chief 
of Staff of the Air Force to make sure that we are modernized, 
trained and equipped, so that your Air National Guard can be as 
effective and efficient in the 21st century as it was in the 
20th century.
    We have got readiness indicators that are trending down. 
And for me to say that in the Air National Guard, it is hurtful 
because, for many, many years, the Air National Guard has 
maintained extremely high readiness rates.
    We are involved in the Federal mission alongside our active 
and reserve counterparts at a high rate of tempo, and we are 
also assisting with our missions here at home. And as General 
Blum is fond to say, we provided some of the greatest airlifts 
since the Berlin airlift in our resupply during Hurricane 
Katrina and Rita. We are proud to do that. We are proud to do 
our State mission in addition.
    So, Mr. Chairman, thanks for letting me be part of this 
committee today. We look forward to your questions. And I thank 
you for what you have done for the readiness of the Air 
National Guard.
    Mr. Ortiz. Thank you so much.
    Now I am going to ask you a question. You are the director 
of the Air National Guard, and I understand that the Air Force 
accepted a ten percent risk across the total force in flying 
hours. How does that impact on the Air National Guard?
    General McKinley. Any time you ask an airman to take a cut 
in flying hours, it is hard to do. And I think, from my vantage 
point, it is a risk that we have to take in this environment in 
which we are living. You know, the Air National Guard prides 
itself on its experience, both in maintenance and operations 
and our combat support, but that experience degrades over time. 
It becomes hollow. And we have never had to experience tiered 
readiness.
    I am afraid that when our active component takes a cut in 
flying time, which translates in us taking a cut in flying 
time, it will have a risk to bear at the other end of it.
    Now General Blum asked me when I became the director to 
maintain our end strength. End strength was vitally important 
to us as I became the director of the Air National Guard. So 
taking that 10 percent risk, while it was painful, meant that 
we kept 106,700 members in the Air National Guard, also very 
important to us.
    So we had to do the tradeoff. But what it will equate to 
us, it will mean that our pilots will get fewer than eight 
sorties a month in our fliers, fewer sorties in our large 
aircraft, while at a very high operational tempo rate in our 
global war on terror.
    So I am concerned. It is a risk. I will keep General Blum 
fully informed of that risk, but I thank you for that question 
because it is very important to us.
    Mr. Ortiz. I want to look at ways to see how we can bring 
it up to the standards, to what it was before because I 
understand--I am not a pilot--but I know this is a very risky 
business, and you need to have all of the adequate training you 
need. So we are going to see what we can do to help you out.
    General McKinley. Thank you, Mr. Chairman.
    Mr. Ortiz. I just have one more question, and then I am 
going to pass it on to some of the other members.
    Now General Vaughn, you are the director of the Army 
National Guard. Regarding personnel end strength, are you 
comfortable with the Army National Guard end strength of 
350,000 for the fiscal year 2008? Is this enough?
    General Vaughn. Mr. Chairman, I am not comfortable with 
that, and the reason I am not comfortable with the 350, first 
of all, we would have to choke it down some and we would have 
to quit recruiting like we are now. We have the opportunity to 
grow this force. We cut our force structure significantly in 
the last 24 months.
    You remember the debates about hollow force. We cut from 
375,000 and we got our force structure down to around 350 to 
352. Now to increase that readiness that we all are concerned 
about, we need to take our appropriated strength up above that. 
And I know that in growing the force, the Army has a 358 
projection in for us through fiscal year 2013. I will tell you 
that that is reachable a lot earlier than that. And as soon as 
we can get an over-strength posture, we will increase our 
readiness significantly in our units.
    Mr. Ortiz. Thank you so much.
    Now I want to yield to my good friend from Georgia, Mr. 
Jones.
    Mr. Jones. I will claim the State.
    General McKinley, let me ask you, General McKinley, the 
term ``reset,'' would you explain to this committee as it 
relates to the number of changes that will be forthcoming to 
the Air National Guard? And can you briefly explain what you 
mean by the Air Guard reset and how this will impact on the 
readiness of the Air Guard?
    General McKinley. Thank you, sir, for that question. It is 
a term that we have never used before in the Air National 
Guard. For 60 years, the Air National Guard has been on a 
steady stream of capitalization. We have maintained older 
airplanes, but we have always had relevant missions in support 
of our United States Air Force and in our state mission at 
home.
    When I became the director last summer, we encountered some 
severe headwind, as I would say in my vernacular, in that we 
were feeling the effects of the Base Realignment and Closure 
(BRAC) legislation which affected almost all of our units; 
practically all of our states' territories in the district were 
affected by BRAC.
    We also were faced with the Air Force restructuring or 
transforming itself, and their proposal, that we have used as a 
model, was the Total Force Initiatives Implementation program. 
Total Force Initiatives means looking for new missions for 
missions that have sunset and gone away.
    We also need to look at our Air National Guard in the 
context of making all of our wings the same. Some states had 
gotten out of balance. Some of our wings had grown at the 
expense of other states. And so we felt that if we were going 
to go through this radical transformation, let us do it all at 
once. The upheaval is causing a great deal of tension in our 
organization. So we decided not to extend it out but to 
encapsulate it.
    And finally, we wanted to what I call fix the books, make 
sure everything within our system was adequately funded and 
that we didn't take extreme risks.
    So you put all of those factors together, that is what we 
call our reset.
    General Blum and I are working very closely with the 
states. The adjutants general, for the first time in history, 
we have agreement that this reset is important, that we can 
move through it carefully in an environment in which each 
airman is protected so that we don't break our force, and we 
feel that with the support, the membership in Congress, that if 
we are adequately resourced, we will go through this reset, 
through the effects of BRAC, through the effects of Total Force 
Initiatives and integration and have a stronger Air National 
Guard when this is completed.
    Mr. Jones. General Vaughn, just one question. It is my 
understanding that as you go on a 12-month mobilization policy, 
you will need to adjust training. Also, funding to the Army 
National Guard will need to be provided early in the cycle. Is 
this accurate?
    General Vaughn. Congressman, that is right on the money. We 
need to move a lot of our training from what we call the 
righthand side of the mobilization to the lefthand side. And we 
simply need to move the resourcing dollars to accompany that.
    The states need the equipment 12 months prior. They need to 
know what the mission is going to be, and they need to get the 
resourcing dollars, the training dollars, to make sure that we 
prepared the soldiers and units for the best possible mission. 
We need to prepare them in such a way that they are going to 
survive, going to do the right things for the Nation, and the 
way to do that is to give them as much training time as we can 
as far forward as we can, which is 12 months early.
    Mr. Ortiz. Thank you so much.
    The gentleman from Mississippi, Mr. Taylor.
    Mr. Taylor. First of all, I want to thank you, all of you, 
for your service to the country. In particular, I want to thank 
you for the magnificent job the national guard did in 
Mississippi after Hurricane Katrina. It is very fair to say 
that Federal Emergency Management Agency (FEMA) fell on their 
face, and the only thing that prevented FEMA from being a 
further embarrassment to our Nation was the magnificent work of 
our national guard riding to the rescue.
    To that point, General Blum, if a Katrina-type event--well, 
I will go back. I remember, in the Spring of 2004, the 890th, 
which is an engineering unit which had been a part of the 
initial invasion of Iraq, came home to Mississippi, and they 
had been ordered to leave their particular equipment behind. 
And in the Spring of 2004, I remember asking Secretary 
Rumsfeld--at that point, they had been replaced, I think, 60 
percent--if we had a catastrophe in Mississippi, what would you 
do? It actually happened 19 months later.
    And to the best of my knowledge, 19 months later, we were 
still at 60 percent. Now they did a magnificent job with what 
they had, but they could have done better with more.
    Do you have any higher degree of confidence in FEMA today 
than you did 19 months ago, or are you still going to be called 
upon, whether it is a natural disaster in Mississippi or a man-
made disaster because of an act of terror in New York, San 
Francisco wherever, are you any better prepared to respond to 
that than you were 19 months ago, or are you less prepared?
    The second question would be with regard to vehicles like 
Mine Resistant Ambush Protected (MRAPs) vehicles.
    A couple weeks ago, Representative Hunter made the 
observation that we have a lot of very good unarmored Humvees 
in Iraq in staging areas. And he supposed that that equipment 
would be coming back and be given out to the guard units. I am 
not so sure that that is a good supposition. Because it is my 
hunch that the Administration, whether it is this 
Administration or a future Administration, is going to be 
highly tempted to give those vehicles either to the new 
government in Iraq, the new government of Afghanistan or some 
other ally in the region.
    So of the 37 billion that you have--that you have outlined 
as your immediate needs, does that address my theory that a 
heck of a lot of equipment won't be coming back. Does that take 
that into account, and to what extent, if any, are you 
replacing things like Humvees with MRAPs?
    General Blum. Thank you, Congressman. That is a good list 
of questions. Let me try to deal with them in reverse order, if 
I can.
    The accounting--could you put up Chart 10, please.
    [The information referred to can be found in the Appendix 
on page 41.]
    General Blum. What I am about to show you presumes that all 
of the money that the United States Army, the Department of the 
Army, and the Department of Defense have allocated to the 
national guard over the next five years gets to us. I am making 
that assumption. I am going to assume that the DOD and the Army 
honor their commitments that they have made to move the money 
that they said they would to the national guard. That will be 
an unprecedented amount of money. However, it will leave us at 
about a 65 percent fill level nationally.
    Mr. Taylor. After the 33 billion?
    Mr. Blumenauer. After. After that money is received. So it 
still leaves about a $13.1 billion bill to make whole the 
equipment we would need to get to an acceptable level of 
readiness that is described at the top of the chart. And it 
would also require $6.5 billion in operating and maintenance 
money to make that a reality as well, and approximately $4.5 
billion for the national guard payment allowance money that 
would be required to make all that fit.
    So all together, that is a $24 billion bill additional to 
the moneys that we are assuming and counting on getting to the 
national guard over the next five years. So, to directly answer 
your question, yes, we took into account those factors that you 
brought up. So this is a realistic estimate, in my judgment, of 
what will be required to in fact buy down the risk and to in 
fact ensure that we were a credible deterrent force in the eyes 
of any adversaries overseas and an immediate operationally 
ready force back here at home should we have to respond to a 
future Katrina.
    The second question you asked me was about MRAPs, the 
improved vehicles that are basically mine resistant and anti-
ambush protected vehicles. Those vehicles that exist today are 
at arguably 400 percent more effective in protecting the 
soldiers inside of them than an up-armored Humvee and largely 
that is due to the shape of the bottom of the vehicle, as you 
are well aware of. I won't go into that because of the 
classified nature of why it is that way. But I am reasonably 
confident you will understand what I am talking about.
    We have expressed, General Vaughn and I have expressed our 
absolute commitment to accelerating that program and making 
sure that no soldier that goes in harm's way doesn't have the 
very best armor protection this Nation or any other Nation's 
industry can provide. Right now, General Speakes, the Army, G8, 
has an open competition, with the captains of industry to 
compete for these vehicles and is purchasing these vehicles at 
a pretty aggressive rate now. When I say a pretty aggressive 
rate it is almost equal to what the Marine Corps is doing. They 
have, a rough order of magnitude, I think 1,100 in theater now. 
He is pressing very hard to go to 2,500. If I am not mistaken--
and I am pulling these numbers out of my memory--it is close to 
17,000 of these MRAP vehicles that we see as a requirement and 
the Army is working very furiously to get to that. It would be 
very welcome, I think, that this committee watch that very 
close and if they can offer any assistance in that I would ask 
you to do so because it will mean numbers of lives saved rather 
than lives lost on the battlefield.
    You asked me if FEMA, do I feel confident FEMA is better 
positioned now than it was in Katrina? Yes, I do. And so I 
think FEMA's capabilities have improved and I think 
organization has improved. And I think that there is a new 
sense of urgency and commitment within that organization to do 
better the next time.
    That said, it will still require the response of the 
national guard--and that is not a bad thing. That is a good 
thing. It is going to take a joint, interagency, 
intergovernmental response to any disaster of that magnitude. 
And we should be much better together than we were last time.
    I am not happy to tell you, however, that our capabilities 
are not in the gross terms of percentage of equipment fill 
better than they were when Katrina happened. When Katrina 
happened, you were about 50 percent on your fill in Mississippi 
for your national guard, Army National Guard equipment. Today 
you are 49 percent. That is not going in the right direction.
    I will tell you that within that 49 percent we have made 
significant improvement in our greatest deficiency, and that 
was communications equipment. So within the 49 percent, there 
is some bands of excellence and a better capability to respond. 
But, however, our engineer equipment, our high water trucks, 
our aviation assets are still in scarce supply.
    How do we overcome and mitigate that? We do that through 
emergency management assistance compacts between the States 
that would not be affected by the hurricanes or less likely to 
be affected by the hurricanes, and we move that equipment and 
preposition that equipment to ensure that it is close enough to 
respond to the predictable hurricane patterns of this Nation.
    But I would feel much better if every State National Guard 
had what they needed to do their job so that the magnificent 
citizen soldiers in those units had all the engineer equipment 
they need in that great engineer unit and the aviation unit had 
all of the helicopters they were supposed to have because that 
would reduce the time it takes to respond. And a timely 
response actually translates into number of lives we can save. 
Time equals lives saved and lost. Quick response and effective 
response saves lives. A delayed response costs lives. And I 
think we are all in the business of trying to save as many 
American lives as we can and lose as few as we possibly have 
to.
    Mr. Taylor. Thank you, General, thank you, Mr. Chairman.
    Mr. Ortiz. Gentleman from New Jersey, Mr. LoBiondo, do you 
have a question, sir?
    Mr. LoBiondo. Thank you very much Mr. Chairman. Thank you 
for being here today, for your service to our country. To 
General McKinley I am sorry that weather forced us not to be 
able to meet at the 177th, but thank you for considering it and 
I look forward to working with you.
    General McKinley, the Air National Guard is some of the 
oldest aircraft in the fleet. Can you talk about what concerns 
you may have with the recapitalization from the Air National 
Guard perspective?
    General McKinley. Thank you, sir. Yes, sir, I am sorry I 
missed that meeting up at Atlantic City, too. You have got a 
great fighter unit there and they have been fighting the global 
war on terror with their air defense mission now nonstop, and I 
really appreciate what they do for us.
    The United States Air Force is faced with a very serious 
recapitalization problem. When I joined the Air Force in 1974, 
the average age of our fleet was eight years old. Today the 
average age of the United States Air Force aircraft, to include 
the national guard and Air Force Reserve, is 24 years old. If 
we recapitalize the Air Force, as the Secretary and Chief of 
Staff of the Air Force would like, it will only slow down that 
age creep.
    So for units like yours in Atlantic City, what we have to 
do is find a way to put them in a road map so that they can see 
that there is a future mission for them. We have to work with 
the Chiefs of National Guard Bureau, and the Secretary of the 
Air Force and the Chief to make sure those airmen who have 
stayed up in that city and dedicated their lives to that 
organization don't feel that there is not a plan for their 
futures.
    The United States Air Force has a plan to recapitalize. The 
Air National Guard has been considered in that plan, and we 
will continue to work closely to make sure that units like 
yours and others around the Nation are fully resourced and are 
fully able to participate in the recapitalization that is on 
the books but unfunded.
    Mr. LoBiondo. I appreciate that because there is a lot 
apprehension and a lot of uncertainty, and a lot of dedicated 
people are sort of counting on the right thing to happen.
    It is pretty well known that the older the aircraft the 
more it costs for the upkeep and to maintain them and keep them 
in the air. And yet, the Active component is shifting its older 
aircraft into the guard. The national guard receives 
approximately 7 percent--if my calculations are right--of the 
Air Force budget but at times over 50 percent of the strikes in 
the global war on terror are being performed by national guard 
and reserve units.
    So how does the Air National Guard plan to address the 
soaring costs of maintenance of these older aircraft in the 
guard units like the 177th and others around the country?
    General McKinley. It is a serious problem. I would like to 
say there is a short-term fix but there is not. There is a 
stable, long-term fix to our aging aircraft fleet.
    The aircraft that you talk about, the F-16s, are deemed 
legacy and yet they are still fighting in the war on terror 
today doing a great job, as I talked about in our closed 
session. They are fighting alongside the Active component in 
every mission we fly.
    I think when you have a legacy fleet like we do in the Air 
National Guard, if we continue to face serious funding 
shortfalls, it will only degrade our readiness over time.
    Those aircraft can only be deferred for maintenance for so 
long. Those aircraft will ultimately break and be out of 
service. Some of the ages of our fleet, KC-135, 47 years of 
age, not many of us drive an automobile that is that old. Our 
C-130s are 26 years old. Our F-15s are 24 years old. Our F-16s 
in the high teens.
    So this is a large problem. It is a serious problem that 
affects our total Air Force. We are concerned about it, sir. We 
will work with you and other Members in Congress to make sure 
we don't let that valuable force go to waste.
    Mr. LoBiondo. Mr. Chairman, do I have time for another 
question?
    Mr. Ortiz. Yes, go right ahead.
    Mr. LoBiondo. General, beyond the maintenance cost issue, 
one of the other serious concerns that I have is about the 
capabilities of the older aircraft that are being shifted into 
the guard, the lesser capabilities.
    Is that taken into account? It has to be taken into account 
when you are talking about mission tasking, doesn't it?
    General McKinley. Right now we have got a fleet of 
aircraft--I am speaking predominantly of kinetic fighters that 
can integrate well with our aerospace expeditionary force model 
and, thanks to Members like yourself, through the national 
guard and reserve equipment account we have been able to 
modernize those aircraft with precision targeting pods and 
things that we were unable to obtain through the normal funding 
streams. So I would like to thank you again for giving us that 
capability.
    For the foreseeable future we should be able to be fully 
interoperable with our Active component counterparts. But as we 
get into fifth generation fighters, new C-17s, new KCXs, the 
real task for General Blum and myself is to make sure that the 
Air Force has enough resources so that it equips the guard and 
reserve units that they have depended on for the last 60 years.
    That is going to be the real challenge for all of us, is to 
find enough money to re-equip those units with systems that can 
sustain themselves into this new century.
    Mr. LoBiondo. Has there been any discussion or planning of 
selecting Air Guard units with homeland security missions such 
as the combat air patrol over high value targets of terrorists 
attacks with newer aircraft, you know, the F-35s? Any 
discussions or any comments you can make on that?
    General McKinley. Sir, as you know, the preponderance of 
air sovereignty over the United States is flown by Air National 
Guard aircraft, both fighters and tankers. Atlantic City, prime 
example of that. Those aircraft fly over critical 
infrastructure, and they are doing a great job, and we thank 
them for what they do.
    In the future, as the Air Force modernizes its fighter 
force with the F-22 Raptor, now stationed at Langley Air Force 
Base, we envision a time when the fifth generation fighters 
will be used because they are very effective aircraft, with its 
speed and its lethality of getting to a target fast enough to 
have an effect. We will look at the F-35 as we can, as it is 
brought into line, to see if it can also meet that mission 
requirement.
    There is a tremendous balance with these new sophisticated 
fighters being used so much overseas that we don't retain them 
here at home. We need to make sure that we have enough of them 
in quantity to do that.
    Mr. LoBiondo. General McKinley, thank you. Generals, thank 
you. Mr. Chairman, thank you.
    Mr. Ortiz. Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman. I would 
like to say thank you to the generals here, General Blum and 
General Vaughn and General McKinley.
    General Blum, you spoke very glowingly about the guard and 
particular about our guardsmen, our Guam guardsmen that are 
stationed over in the Horn of Africa.
    And since this now is a public hearing, I would like to ask 
you again the same question that I did earlier, and that is to 
say that I am particularly a strong supporter of our country's 
national guard. And it seems that the men and women of our 
national guard do more with less each year.
    So currently the guard units are deployed to practically 
every hotspot around the world, including Iraq and Afghanistan. 
And companies from Guam's Guard have for four years now--this 
is the fourth deployment--have been deployed to the Horn of 
Africa. In fact we have an entire company there.
    So my question to you, and I respectfully request that you 
discuss with the committee whether you believe that this 
increased reliance on the guardsmen and women, is a short-term 
reality or whether the guard can be expect to be tasked in this 
manner for the foreseeable future, and whether the Department's 
budget planning will reflect this outlook.
    Mr. Blumenauer. That is an excellent question, 
Congresswoman. First, let me tell you that the performance of 
the Guam National Guard is second to none. They are well 
respected and welcome in the theater. They have established an 
amazing reputation for competence, tolerance, and 
professionalism. And you can be very proud.
    The citizen soldiers of Guam serve at a disproportional 
rate to the rest of our Nation. Compared to the rest of the 
country, they probably have the highest percentage of native 
sons and daughters in uniform of any of our States and 
Territories, and they do an amazing job.
    I don't think what you see happening with them now is a 
short-term anomaly. I think what we are experiencing now is the 
new reality. The national guard has fully made the transition 
from a strategic reserve to an operational force. The citizen 
soldiers and airmen of Guam have done that as well. The only 
thing that has not done that so far are resourcing policies and 
authorities, regulations and statutes.
    They are still largely best supportive of a strategic 
reserve, and they do not fit. And they do not adequately 
address, without some significant friction and work-arounds, 
the resourcing and sustaining an operational national guard or 
reserve component.
    These need to be addressed by the Congress and these need 
to be addressed also by the Department of Defense and 
Department of the Army and the Air Force and they are moving in 
that direction, although not as fast as many would like. But it 
is moving in the right direction and there is a new sense of 
commitment to getting that right.
    I think this is exactly what our Founding Fathers intended. 
I think our Founding Fathers had it right. And I think they 
were amazing in their vision because I firmly believe--as both 
a military officer and as a taxpayer and American citizen--we 
should never send our American sons and daughters into harm's 
way ever without calling up the national guard because there is 
a very significant difference calling up citizen soldiers and 
airmen as opposed to a professional army of all volunteers.
    For the last 34 years, we have been an all-volunteer force. 
When you call up the guard for overseas missions or even 
missions here at home, you call up America. We saw that in 
Katrina where every single state and territory, to include 
Guam, sent people to Mississippi and Louisiana to save lives, 
reduce suffering and restore normalcy to the lives of the 
people in the gulf coast.
    As you go around the world, you cannot find any theater 
where combat is being conducted, where stability operations are 
being conducted, or any other military operations are being 
conducted that do not include citizen soldiers and airmen from 
your Army and Air National Guard from all the various states. 
That is exactly the way it should be.
    And when they go overseas, they should be superbly 
equipped. And they are. And they should be superbly trained. 
And they are. And they should be superbly and competently led. 
And they are. But they also deserve that same level of support 
when they are deployed back here at home under the command and 
controls of the Governors of our great Nation to do homeland 
defense missions or support the homeland security missions or 
respond to the adverse ravages of Mother Nature, such as you 
experience on the islands in typhoons and tsunamis and 
hurricanes and tropical storms and all of other severe weather 
patterns and anomalies of nature that we suffer.
    On the average about 17 states a day for the last 4 years 
have had their national guard called out, and it is not 
uncommon to on any given day have 7,500 citizen soldiers called 
out by the Governors of our great States of this Nation to save 
lives, reduce suffering and return normalcy to the lives of the 
community and the citizens of that state.
    And that doesn't even take into account the 6,000 that are 
on the Southwest border right now supporting the Border Patrol. 
When you call out the national guard at home, you have a 
different--you can't do it on the calendar. You have to do it 
on your watch. It is counted in minutes and hours. The response 
must be that quick. It has to be like your local fire 
department. And they have to get there almost as fast as the 
local fire department. That is the expectation of the American 
people and the mayors and Governors of this Nation. That means 
they must have the people, the training and equipment they need 
to be able to do that. If your house catches on fire and you 
call your local fire department and they show up with 34 
percent of their equipment, you are not going to be happy with 
the result. And you expect better than that, and you would find 
that unacceptable.
    I think that is the same level of scrutiny we ought to put 
on how we equip our national guard for the homeland mission, 
and that is why I brought it to the attention of this 
committee.
    Ms. Bordallo. Thank you very, very much, General. And it 
may interest you to know that our chairman of this subcommittee 
will be visiting our guard facilities on Guam in a few days.
    Mr. Ortiz. Thank you so much. Ms. Boyda and then followed 
by my good friend, Mr. Ellsworth.
    Mrs. Boyda. Thank you so much for your testimony in both of 
these hearings, and you have been very generous with your time 
and I certainly, as many people, including our Governor back in 
Kansas, are concerned with the readiness levels of equipment 
with our national guard.
    My question had to do with the change of policy that 
Secretary Gates was talking about with the one year, and I 
might ask you to explain that again so we all are on the same 
page.
    My question is, if that is one year, one year out of five--
wasn't that it? One year? If the guard has become really part 
of our overall full force and we have a Katrina, does that mean 
that those guards, in your estimation, would you expect in the 
case of a national emergency, whether it be on our soil or 
others, for someone to be able to say, well, that was our best 
theoretical but, unfortunately, we have changed from being an 
emergency guard that you all have played, to now being part of 
those full-time Armed Forces?
    What is your level of confidence at some point they are 
going to come to you in a national emergency and say we need to 
go ahead and deploy people who have already deployed for over a 
year?
    General Blum. I don't think it will take--Congresswoman, I 
don't think it will take a national emergency to do that. I 
think we are there now. The stated goal, the objective that 
Secretary Gates stated, was we will absolutely mobilize the 
guard for one year and one year only. That is a very welcome 
policy because heretofore it was one year boots on the ground 
and probably four or five months of preparation, training, and 
perhaps a month or two after they got back and one year wasn't 
a year. It ended up being somewhere like 18 to 22 months. I 
think he realized the burden that was placing on the citizen 
soldier and the family and the employers, the three legs of the 
three-legged stool that I described earlier. I think it was a 
very courageous and right decision that he made.
    He said the stated goal would be that we would call up the 
guard perhaps one year, followed by five years. The model would 
be--the goal would be----
    Mrs. Boyda. So they would be deployed once every six years.
    General Blum. One year followed by five years back at home, 
essentially one in six. That is exactly what it would be. He 
said we are not--he was very clear. He said it at the White 
House. He said it at a press conference. He said it to 
committees of Congress. And he is consistent in his message. He 
said that is not achievable right now. We will have to deploy 
the guard more frequently than one in six years. We will have 
to probably use the guard more, to be totally realistic, at the 
rate we are using it today and, as the best we know in our 
crystal ball, the best--which is not perfect, and never has 
been--but we think we are probably going to have to turn the 
force at about one year and followed by four years back at 
home, which would be one in five and some specialized units 
where we don't have a deep enough inventory to rotate may have 
to go even slightly sooner than that.
    The Secretary understands that that places an undue burden 
on the family and the employer, and he is working a 
compensation package that I don't have the details of yet 
because they haven't been finalized, but they will be 
forthcoming very soon, that will show how we recognize the 
sacrifice of the family, the member and the employer and we 
take some measures to mitigate that discomfort that turning or 
more frequent rotation would cause.
    He is also even with that piece of the disadvantage, and 
the reason for that is the enemy has a vote in this. And they 
are not following our plan. If they were, we could change the 
rotation rate down. The current realities of the global world 
security situation are going to require that the guard be an 
operational force overseas for the foreseeable future at about 
the rate I described, which is a little less than what his 
desired end state would be.
    Mrs. Boyda. May I just ask is that based on our current 
conflict in Iraq? Is that based on if something else were to 
happen globally? When you say you foresee it being at that 
level, given where the world is today, is that the world is at 
war in Iraq?
    General Blum. Well, Iraq is not the totality of where our 
forces are.
    Mrs. Boyda. I understand.
    General Blum. We have forces in the Balkans in the national 
guard, we have forces in the Horn of Africa.
    Mrs. Boyda. That is basically the level of conflict today.
    General Blum. Yes, a steady state. And the reason he has 
done that is to not repeat the errors where we made rosy 
predictions and optimistic predictions of less force required 
and then we found ourselves running to catch up with reality. 
So we are worst-casing it, planning for the worst. Rather than 
planning for the best and hoping the worst doesn't happen, we 
are planning for the worst and hoping for the best. And if we 
can get to the one in six sooner then obviously everybody will 
be happier about that.
    But the national guard will be part of the operational 
rotation. Just how much it will be involved and how frequently 
it will go is undetermined, frankly, and we don't determine 
that. What we have to determine is to make sure that two things 
happen and if you can--and it might be useful to put up a slide 
that shows the commitment that we have made to the Governors. I 
think that is slide three. This would be an interesting slide 
to show. Because when I first came in to the job, we were not 
paying attention to what you are alluding to, and that is the 
balance of the forces that we have to remain available to the 
Governors on call all of the time to be able to respond in the 
States, to do homeland defense, homeland security operations 
and still be a reliable, accessible ready force for our 
overseas missions as a Federal Reserve of the Army and the Air 
Force.
    So the Governors worked out this model that you are looking 
at. And what it illustrates--you don't have to read the small 
print. You just have to watch the large colors. They are saying 
that the piece of the pie that is shown in the chart that is in 
green is the force that would remain available to them at any 
given time.
    And they said, Governors of this Nation, all of them, the 
National Governors' Association had a meeting in 2003 and they 
approved that if they thought it was reasonable that we would 
have about 25 percent--and that is the people that are shown in 
red--that would be deployed overseas at any given time from the 
national guard, Army and Air, that that would leave them 75 
percent of their force back at home. That would be the quadrant 
shone in gold and in green, and the ones that would be red 
would be overseas and unavailable. And now that period of time 
would be one year. And before that period of time was 18 to 22 
months.
    So the new policy reduces that friction. And then the 
people that would be in the gold quadrant would be those that 
are in intensive training, being equipped--that is what General 
Vaughn was talking about, moving the manning and the money and 
the equipment into those people so that they are absolutely 
ready when they are needed and we can in fact have them ready 
when they need to go into that one year of mobilized status. 
And the goal would be that that wheel would rotate about one in 
six years. Now if it needs to turn quicker, it can. But the 
proportions stay the same.
    Now if you looked at these charts, which I know you can't 
read from there, but it takes every one of your states and 
every one of your districts, your home districts and it shows 
that we have honored that, our obligation to the Governors, and 
that there is only one state in the whole country right now 
that threatens breaking the 75 percent availability model and 
that only breaks it by 1 percent. Every other state in our 
country has about 80 percent as an average of its national 
guard back at home and less than 20 percent currently deployed 
overseas. So the people are back there. The troops are back 
there to train----
    Mrs. Boyda. Your point is training and equipment----
    General Blum. Now what is missing is the equipment because 
when the troops came home, the equipment didn't come home. So 
remember we go back and I don't want to--we go back on the 
other three-legged model and that is people, training and 
equipment. And if you don't have the equipment you don't have 
capability.
    Again let's go to the fire department. You have a world 
class fire department, has all of its 80 percent of its people 
in the station ready to go and they are superbly trained. But 
they only have 34 percent of their equipment. How effectively 
can they respond? They can respond. But it takes longer. They 
have to borrow equipment from other places which means they are 
slower in their response which means they are not as effective 
in saving lives and property as they could be. You can take 
that little model and apply it to the national guard's mission 
here at home and it translates very, very well.
    Mrs. Boyda. Thank you very much.
    Mr. Ortiz. Mr. Ellsworth.
    Mr. Ellsworth. Thank you, Mr. Chairman, and thank you for 
letting me join your committee today. Thank you, Generals, for 
your testimony and your service. I have to tell you that I keep 
waiting for the good news. I have been here a grand total of 
about 90 days now, and I asked to be on Armed Services so I 
could help you to do your jobs. I have been to the Pentagon and 
met with different hearings. And when I came in I guess I was a 
bit naive to our readiness and our state of readiness in all 
the branches, and it is very concerning to me.
    And now I find out again--I won't do this very often--but 
when I read the initial articles about being redeployed in 
readiness, my first call was to Adjutant General Lombard of 
Indiana. Let me tell you, you have a good one. Indiana should 
be proud and I am sure you are, too.
    But I can feel your pain a little bit. As a former sheriff, 
I can remember sitting on that side in front of a county 
council and trying to convince the county council about 
equipment needs and that we wouldn't use these things every day 
and they would sit there. But on the day that you get the call 
that you need them, you need them. And you don't have time to 
procure and you don't have time to order and you don't have 
time to go down and shop for that. And I know you don't either.
    General, one of the things you said in both hearings, you 
were talking about during the budget process that--and you kind 
of emphasized the word ``if.'' If we got all the money budgeted 
it would still be about 65 percent of what I take is the 65 
percent of what we need and leave 13.1.
    Is there a question whether we get that, or has it happened 
in the past where we, the Congress, or they the Congress at 
that time--I shouldn't use the word ``earmark.'' that is not a 
very good term, but put money for you and it didn't make it to 
you or there is doubt in your mind that it is going to make it 
to you? And then I guess the follow-up question to that is, 
what do we in the Congress need to do to make sure you get your 
share of the pie?
    General Blum. Well, let me give you some good news. The 
good news is the force is in magnificent shape in personnel. 
That is the hardest part to fix. We have the best people, the 
best quality people and the ranks are full. That is great news. 
A year and a half ago nobody thought that was possible except 
for the two guys at this table. We have achieved that and it is 
the finest quality force, the most professional force, the 
youngest force and the most combat experienced force. Sixty-
five percent of our force are combat veterans. That is the good 
news.
    The other good news is it looks like the young men and 
women of America are continuing to want to join our ranks and 
do what we are asked to do. I think that is good news.
    The other good news is that our problems are pretty easy to 
fix. This is a very rich nation, and these problems are 
solvable. These aren't complex problems. These are really 
moneys that need to be authorized and appropriated. The fix is 
that simple.
    So most of the real bad news problems are much more complex 
than that. This is a relatively simple thing to fix. And again 
I go back to your history as a sheriff. If you had all your 
deputies and they are all trained and they are high quality 
guys and girls, if all you need is some equipment and the 
county council votes you money and authorizes the money, it is 
pretty easy fix, isn't it, compared to finding quality 
officers, experienced officers, guys and girls with 
extraordinary integrity and courage to go do that kind of work.
    We have that. We have got the hard part fixed. That is the 
good news. The bad news is that we are under resourced. And the 
bad news is what you alluded to, it would be highly unusual--I 
mean the Members here have a far greater historical record of 
watching how appropriations and authorizations change and morph 
over the FYDP and over the POM. It is very extraordinary that 
money that shows up in the POM in one year survives and gets to 
its intended purpose throughout that five or six-year cycle.
    Let me say that history is replete with broken promises and 
broken commitments--not of the current leadership, but of past 
leadership. So if history is an example, we should be 
skeptical. We should be dubious. We should be very watchful, 
both as senior military leaders and as a Congress, to see that 
what was intended actually transpires and becomes reality.
    There are also historical examples of times where the 
Congress was very clear in what their authority and their 
appropriation and what their authorization was intended to do 
and they put it into an account called a national guard and 
reserve equipment account, and that has rarely ever deviated 
from its intended purpose to its desired end state.
    Same could be said for national guard pay and allowance 
accounts and national guard on operation and maintenance (O&M) 
accounts. So I am not talking about earmarking, but I am 
talking about if the Congress is concerned that the money that 
is authorized and appropriated would be rerouted, reprogrammed, 
used for another purpose, if the Congress is concerned about 
that, there are some remedies of that that Congress could 
implement. We would be glad to take the appropriations and the 
authorizations in any manner they come, because we are going to 
use it to purchase and buy the capability that we are 
discussing today that we don't have.
    So however it comes, we are going to be grateful. If it 
comes down from DOD appropriations or the Department of Army 
appropriations, in your case, or Air Force appropriations, we 
are willing to move out with that. If they come in on the 
national guard equipment account, it is very clear what the 
intent is and we will not deviate from the intent.
    Mr. Ellsworth. I will speak for the whole committee, but I 
have heard enough in the backroom that we want the money to get 
where we think it is going and we will do everything we can to 
get that. I think probably the same thing you talked about, 
where we were not as ready as we were on September 11 of 2001 
was probably equipment. I am guessing, since you stated you 
have the men, we have got the training, the good people, but 
having the equipment is----
    General Blum. I am glad you gave me the opportunity to 
clear that up. We are eminently more ready today than we were 
on September 11th. We are focused. We have planned. We have 
trained. We have exercised. We have stood up new capabilities 
in the last five years. We had zero joint force headquarters on 
September 11th. We have one in every State and Territory today. 
We had zero chemical biological nuclear high yield explosive 
enhanced response force packages on September 11th. We have 17 
of those today. We had only 10 civil support teams on September 
11th. We have almost 48 of them trained, ready and certified 
today.
    We have had little connectivity of Information Technology 
(IT) and communications to provide secure and nonsecure e-mail 
and secure and nonsecure video teleconferencing (VTC) and 
communications capability. We now have exceedingly good 
situational awareness, common relative operating picture that 
we share in a secure and nonsecure method through something we 
call the joint Continental United States (CONUS) support 
environment, communication support environment. These are huge 
steps in the right direction.
    We have trained and exercised with the Department of 
Homeland Security and Northern Command, which did not exist on 
September 11th. So there is great--we have an Assistant 
Secretary of Defense for Homeland Defense that we didn't have 
on September 11th. So we have policy overwatch at the Pentagon 
for this. We now have a combatant commander that watches out 
for this. We now have a national guard that is postured and 
mentally prepared to do this. Now all I am asking is, let's 
close the last mile correctly and let's equip the guard 
adequately so that when we are called we can be as superbly 
able as this country expects us to be in response to a weapon 
of mass destruction or a catastrophic event, whether it is 
caused by a freak of nature or it is caused by an accident, an 
industrial accident, whatever it is. Whatever causes Humpty-
Dumpty's demise we have to be able to respond to that and 
return to a normal condition and save as many lives. The long 
pole in the tent right now, the last thing we need to make this 
complete, is to equip the force properly to do that job.
    Mr. Ellsworth. I couldn't agree more. I think the American 
people will drive by a guard center and see the generators out 
there, think, boy, they haven't moved for a year but when I 
needed those in the tornado in 2005, November of 2005, when the 
guard came out and did an excellent job, we couldn't have done 
without them and 25 of our residents were killed that night. 
Not nearly on the size of Katrina, but certainly in our area it 
was huge.
    Finally--so thank you for that also. Finally, do the 
Governors have a say--this shouldn't take a long answer--have a 
say if our guard units are deployed overseas, do the Governors 
have a say and, if not, should they have some say or at least 
consultation from our Administration before they are deployed 
overseas?
    General Blum. Absolutely they do and absolutely they 
should, and they have been magnificent. I have not seen in four 
years in my tenure here any Governor at any time play politics 
with regard to their guard. They stop being politicians and 
they become the commanders in chief of their national guard. 
That is what they are by law and they take that responsibility 
with immense seriousness. And not one single Governor has ever 
denied equipment, soldiers, or airmen for the overseas mission 
in the war on terror in my tenure here, and I know my two 
colleagues can speak to that in detail.
    We have at times had discussions with Governors to make 
sure that we didn't disproportionately pull capabilities out of 
one State--let me not use Indiana, let me use Idaho. Idaho at 
one point had 82 percent of its national guard deployed 
overseas. That is a little bit much to ask. And we found better 
ways to do that. And hence, that is why we built that model 
with the National Governors' Association to make sure that the 
Governors always would have what they needed to protect their 
local citizens at home, yet at the same time would be a 
reliable, accessible ready force to help the Air Force and 
their air expeditionary rotations and help the Army in the Army 
force generation model so we can give the combatant commanders 
the capabilities that they needed without leaving Governor 
Daniels uncovered in Indiana.
    Mr. Ellsworth. Thank you, and thank everybody the three of 
you represent. Thank you for your service. Mr. Chairman, I 
yield.
    Mr. Ortiz. Thank you so much. You know, I know that this 
committee is very concerned. But we have 435 Members. Do you 
think, should all 435 Members be concerned? Do you think we 
should be very concerned? I know members of this committee are.
    General Blum. Mr. Chairman, absolutely. Whose district 
should not be adequately protected? Of course. The answer is 
every zip code, every congressional district in our great 
Nation ought to be adequately protected. And if the guard is 
adequately equipped, we can do that because we are 
prepositioned, forward deployed in every Congressional district 
of this Nation. There is no place that anyone elects a 
Congressman that doesn't have a national guard presence, which 
means a capability to respond in that local area, and call on 
all of the help that they can get from the adjacent areas and 
the adjacent states if necessary, as was demonstrated in 
Katrina.
    So the better we are equipped the better we can respond, 
the faster we can respond, the more effective it can be, and 
again not only is that a capability, I think every American 
expects, it sends the message that is no small message to our 
adversaries overseas that while we may be stretched and we may 
be engaged in Afghanistan, in Iraq, we are not out of options. 
We are not out of capabilities. And could we respond if some 
other event were to happen? Of course we could. Could we 
respond more effectively? More timely? And better if we were 
fully equipped? Absolutely. And could we perhaps prevent the 
requirement to respond overseas to a new place if an adversary 
viewed us as a more credible reserve than we are right now? I 
think the answer to that is absolutely.
    Mr. Ortiz. One of the things that I noticed when I went to 
visit my national guard and reserve units, my district borders 
Mexico and they had just come back from Iraq. They had--this is 
the second time that they have been activated and they came 
back to Iraq--I mean from Iraq. We saw that they don't have--
when they are activated they don't have anybody left behind, 
because the families stay behind--to give them information that 
they need because the families stay behind. They don't know 
where to go for family services, for medical services.
    And then on top of that, I always want to talk to the 
families. I found out that 15 percent of the members of the 
national guard who were there, they are married, they are 
married to their wives who are in Mexico. They are in the 
United States. They are fighting a war, but then the families 
who are on the Mexican side, the immediate families, the wife 
and the children, do not receive any type of services 
whatsoever. No health services. We had a lady whose little 
girl, she couldn't be there because she was sick. She had 
pneumonia and her husband was fighting the war in Iraq.
    I think we need to look at that, and I don't think that a 
lot of people understand that and know that when you get close 
to the border there are a lot of young men and women who serve 
in the military and their families are separated from them. And 
I hope that when they are activated somebody can stay behind. 
We had one lady that was doing voluntary work and the reason 
she was doing volunteer work was because her brother had been 
in Iraq, and he was there. There was nobody to guide the 
families who were behind to tell them what kind of services 
were available and where they could go to seek assistance.
    Maybe we need to look at that and see what we can do 
because now more than ever we are seeing more activation of 
reserve units and national guard units than before. And I don't 
know generally if you all were aware of this, about the 15 
percent all along the border of the families, immediate 
families, wife and children, who are on the Mexican side cannot 
come across to receive any type of medical services.
    General Blum. Mr. Chairman, every day I learn something 
new. I learned something new. I would like to take that for the 
record. I would like to take that back. We clearly understand 
we are a very diverse nation, and it is very different what is 
going on in Connecticut, is very different from what is going 
on in Guam, and what is going on in the whole rest of the 
country is very different than what is going on in Texas. So we 
have tried not to have a one-size-fits-all solution and we kind 
of powered down all of our programs to the State level.
    But I must be honest and admit to you that I was not aware 
what you have just described to me. And I will look into that, 
and I will call up General Chuck Rodriguez, the Adjutant 
General of Texas, and make sure he knows about this and he may 
say, sure, we know about that and this is what we are doing 
about it and I will share that with you. And if he says, no, I 
did not know that, I will make sure he does know that and we 
develop some way to adequately support those soldiers that have 
a problem that up until now I was unaware of.
    [The information referred to can be found in the Appendix 
beginning on page 51.]
    Mr. Ortiz. And thank you so much. I did not know either 
until I went to pay a visit in the national guard unit in my 
community.
    Well, thank you so much for the work that you do. We are 
going through a few crises here and there, but we will do okay 
and this is a great nation, a great country. We ask God to give 
us wisdom so that we can do the right thing, so that we can 
make the right decisions. And being no further questions, this 
hearing is adjourned.
    [Whereupon, at 5:20 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                             March 27, 2007

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 27, 2007

=======================================================================



    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             March 27, 2007

=======================================================================



    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             March 27, 2007

=======================================================================

      
                    QUESTIONS SUBMITTED BY MR. ORTIZ

    Mr. Ortiz. There was nobody to guide the families who were behind 
to tell them what kind of services were available and where they could 
go to seek assistance.
    Maybe we need to look at that and see what we can do because now 
more than ever we are seeing more activation of reserve units and 
national guard units than before. And I don't know generally if you all 
were aware of this, about the 15 percent all along the border of the 
families, immediate families, wife and children, who are on the Mexican 
side cannot come across to receive any type of medical services.
    General Blum. When national guard soldiers are alerted for 
deployment, they are briefed at that time on the wide array of family 
support resources which will become available to them.
    For every Texas Army National Guard unit that is deployed there is 
a rear detachment led by the Rear Detachment Officer in Charge or Non-
commissioned Officer in Charge. These individuals have contact with the 
families and the unit's Family Readiness Group leaders.
    Each deployed unit has established a Family Readiness Group (FRG) 
that is led by volunteers (usually spouses of the deployed soldiers). 
These FRGs make routine contact with all the family members of the 
deployed unit and host many activities in order to promote cooperation 
and cohesion amongst the families.
    The Texas National Guard State Family Program has established 18 
Family Assistance Centers (FAC) throughout the State of Texas to 
directly assist families and provide referrals to any agency or 
organizations that can provide needed assistance to the families. They 
also routinely contact the families of deployed Soldiers and Airmen.
    At this time, no deployed Texas National Guard soldier has 
identified benefits-eligible dependents living in Mexico. The Texas 
National Guard has researched the matter, however, and determined that 
there are soldiers who, if deployed, may have eligible family members 
in Mexico. The Texas National Guard is reviewing its system for 
collecting this information from soldiers during the pre-deployment 
phase to insure that contact information is provided on record for such 
dependents.
    Families of national guard soldiers and airmen who are deployed 
have full benefits under TRICARE provided the family members have been 
properly enrolled for coverage. The National Guard Bureau is not the 
controlling authority for the Defense Enrollment Eligibility Reporting 
System (DEERS) but it is our understanding that even if a spouse 
resides in Mexico, he or she may be enrolled by their national guard 
member upon presentation of validated documents such as a marriage 
license. Once enrolled, family members are authorized to obtain 
healthcare either in the United States or inside Mexico via TRICARE 
Overseas.

                                  <all>

</pre></body></html>
